August 31, 2010

MARY ANNE GIBBONS
GENERAL COUNSEL

LINDA A. KINGSLEY
SENIOR VICE PRESIDENT STRATEGY AND TRANSITION

KEVIN A. CALAMONERI
MANAGING COUNSEL CORPORATE LAW

SUBJECT: Management Advisory – Postal Service Patent Management (Report
         Number DA-MA-10-004)

This management advisory presents interim1 results of our review of the U.S. Postal
Service’s patent management (Project Number 09YG047DA000). Although we plan to
report further on this topic in the future, we felt the results of our initial evaluation of
three patents warranted management’s immediate attention. Our objective was to
determine the commercial significance or revenue-generation potential of Postal Service
patents. We conducted this self-initiated review based on financial risks associated with
patent management. The U.S. Postal Service Office of Inspector General (OIG)
contracted with an intellectual property management firm to study the commercial value
of the Postal Service’s patent portfolio. See Attachment A for the contractor’s detailed
study.

Intellectual property is intangible property created by individuals or organizations that
can be owned, transferred, leased through licensing agreements, divided or improved.
The Postal Service’s general counsel helps the agency identify and protect its
intellectual property. One type of intellectual property is a patent.2 Properly managed,
patents can be used to negotiate contracts and business deals, resolve disputes,
enhance market share, and produce revenue, which is highlighted later in this review.




1
  We plan to expand our reporting on Postal Service patent management in the future. As such, we will claim the
combined monetary impact at that time.
2
  Patents confer to the inventor the right to exclude others from making, using or selling an object or tool, process,
business or marketing system and/or method that is invented.
Postal Service Patent Management                                                                   DA-MA-10-004



Commercial Significance of Patents

To assess commercial significance of Postal Service patents, an intellectual property
management company performed an initial evaluation of three of the 97 U.S. patents
identified as active and owned by the Postal Service. For the selected patents, they
determined the Postal Service could generate $1.07 billion in annual revenue by
licensing the following:

    




Postal Service policy3 covering new products and patent licensing agreements4 seeks to
ensure that new and enhanced products consistently meet customer needs, generate
new revenue, and strengthen the Postal Service as a viable business. The opportunity
to capitalize on active Postal Service patents exists because management has not
strategically considered leveraging patents to generate new revenue. In its Five-Year
Strategic Plan5 the Postal Service conveys its desire to generate new revenue by
leveraging its strengths; however it does not reference intellectual property or patents.

Although the Postal Regulatory Commission (PRC) has the authority to regulate patent
commercialization, there are no regulations that prohibit the Postal Service from
licensing its patents. According to Postal Service counsel, the PRC has yet to issue
regulations on patent commercialization. Commercial benchmarks for an effective
licensing and intellectual property management program show that patents are drafted
with revenue generation in mind from the outset (not as an afterthought) and are
intended to protect ideas that have already come to fruition or commercialization.

Recommendations suggested by the contractor during their study will be addressed in a
subsequent report on Postal Service patent management. At this time, we recommend
the general counsel, in coordination with the senior vice president, Strategic Planning:

3
  Handbook F-66 D, Investment Policies and Procedures – Business Initiatives, Alliances, Real Estate Development,
and Major Operating Expenses, Chapter 4, February 2006.
4
  A contract under which the licensor, for an agreed-upon consideration, grants the licensee certain rights with
respect to intellectual property (such as trademarks, patents or copyrights) of the licensor.
5
  Five-Year Strategic Plan for 2009-2013, October 2008.


                                                        2
Postal Service Patent Management                                               DA-MA-10-004




1. Establish a strategic plan with timelines to capitalize on the Postal Service’s patent
   inventory strength.

Management’s Comments

Postal Service agreed with our recommendation and will take appropriate action to
resolve the identified issues by September/October 2010. Specifically, management will
consider issuing a request for proposal to determine whether outside firms exist that
could help the Postal Service monetize its intellectual property on a contingency basis.
Management set forth a timeline to move forward in this regard. Also, management will
consider reevaluating its current pricing model for services related to the address
correction patent; however, they noted that various policy and regulatory issues may
impact progress regarding any pricing adjustment. See Appendix B for management’s
comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
management’s corrective actions should resolve the issues identified in the
management advisory. The OIG considers the recommendation significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. This recommendation
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
for Support Operations

Attachment

cc:    Kelly M. Sigmon
       Thomas G. Day
       Deborah A. Davis
       Corporate Audit and Response Management




                                             3
Postal Service Patent Management                                                DA-MA-10-004




                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service’s Law Department helps the agency identify and protect its
intellectual property, which is intangible property created by individuals or organizations
that can be owned, transferred, leased through licensing agreements, divided or
improved. Statutes and case law set the requirements for an asset to qualify as
intellectual property and provide the guidelines that determine the boundaries of a piece
of intellectual property.

One type of intellectual property is a patent. Patents confer to the inventor the right to
exclude others from making, using or selling an object, tool, process, business or
marketing system and/or method that is invented. While patents the federal government
grants are only effective in the United States, most nations have established some form
of patent system.

Utility patents are granted for any new and useful process, machine, article of
manufacture, composition of matter or related useful improvement. Utility patents are
effective for 20 years from the date an application is filed. As a general matter, only the
inventor may apply for a patent. If someone other than the inventor files an application,
the patent, if issued, would be invalid and the applicant could be subject to criminal
penalties.

The contractor performed an initial evaluation of the 97 U.S. patents identified as active
and owned by the Postal Service and determined that 63 patents showed some
commercial significance. Three patents were selected to review in detail based on their
potential value with the results described in this report. The remaining 60 patents with
potential value consisted of:

      Twenty-one that were applicable to Intelligent Mail and Address Quality

      Twenty-three that were applicable to Operations/Engineering

      Sixteen that covered a number of other technical areas

Postal Service is currently selecting additional patents with potential value for review.




                                             4
Postal Service Patent Management                                                                     DA-MA-10-004



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the commercial significance or revenue-generation
potential of Postal Service patents. To evaluate patent management, we contracted with
an intellectual property firm to study the Postal Service’s active patent portfolio to
assess commercial value. The contractor assessed the commercial significance, or
Postal Service revenue-generation potential, from licensing each patent. They used a
rating and ranking system and evaluated the technology of each patent for the attributes
below:

    




We conducted this review during the period from October 2009 through September
2010, in accordance with the Quality Standards for Inspections.6 We discussed our
observations and conclusions with management on May 12, 2010, and included their
suggestions where appropriate. We did not rely upon computer-generated data during
our engagement. To evaluate whether the evidence provided by the contractor was
reliable we considered:



6
  These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, the Inspector General Act of 1978,
as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.


                                                         5
Postal Service Patent Management                                                 DA-MA-10-004



      The professional reputation, qualifications, and independence of those who
       performed the work.

      The soundness of the methodology used and the reasonableness of the results.

      Corroborating information provided by OIG counsel with subject matter expertise.

PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                              6
            ATTACHMENT A




    CONFIDENTIAL AND PROPRIETARY
                Page 2
    CONFIDENTIAL AND PROPRIETARY
                Page 3
